                                                              U.S. Department of the
                                                            Interior Headquarters, DC




                 Commonwealth of the                             Guam                             U.S. Virgin Islands
                Northern Mariana Islands


   Asia
                                                                                  North America




                                                      Hawaii


                                               PACIFIC OCEAN


                                                                                                              South America



    Australia




     Republic of Palau                     Federated States of                  American Samoa                Republic of the
                                              Micronesia                                                      Marshall Islands




           Evaluation of Office of Insular Affairs’
                  Program Management

Report No. WR-EV-OIA-0007-2008                                                                                          May 2010
                   OFFICE OF
                   INSPECTOR GENERAL
                   U.S.DEPARTMENT OF THE INTERIOR




                                                                                  MAY 2 5 2010
Memorandum

To:            Anthony Babauta
               Assistant Secretary for Insular Affairs

From:          Mary L. Kendall
               Acting Inspector Genera

Subject:       Evaluation of Office ofInsular Affairs' Program Management
               (Report No. WR-EV-OIA-0007-2008)

        This evaluation focuses on Office ofInsular Affairs (OIA) effectiveness in assisting the
Insular Areas: the four U.S. territories and three independent countries freely associated with the
United States. OIA carries out the Secretary of the Interior' s responsibilities to the Insular Areas
by administering grant programs benefitting the Insular Areas and advocating for Insular Area
issues within the federal community.

        We found that OIA has limited authority and resources to achieve positive outcomes in
the island communities. Nevertheless, OIA has not effectively used its available resources to
monitor the use of its grant funds by the Insular Areas and advocate for the four territories.
Further, OIA does not have adequate performance measures to track the success of its efforts.
Because of these limitations, areas such as infrastructure development, waste disposal, and health
care remain as serious challenges to the Insular Area governments and their communities. The
report contains recommendations for OIA to improve the effectiveness of its assistance to the
Insular Areas. These actions should dovetail with those recommended by the recent Government
Accountability Office report on grants oversight.

         We would appreciate being kept informed of the actions taken on our recommendations
as we will track the status of their implementation. Please have a written response forwarded to
this office within 30 days, identifying plans to address the findings and recommendations cited in
this report.

        Should you have any questions about this report, please call me at 202-208-5745.

cc:     Nikolao Pula, Director, Office ofInsular Affairs, U.S. Department ofthe Interior




                                Office of Inspector General I Washington, DC
Executive Summary
 
The Office of Insular Affairs (OIA) has limited resources and authority to
accomplish major policy goals in the Insular Areas. Specifically, OIA does not
have the technical expertise to directly assist the Insular Areas with the numerous
problem areas they face. OIA also lacks the authority to directly tackle these
problems because the responsibility for providing local government services rests
with each Insular Area government. Beyond the constraints facing OIA, however,
we found that OIA can improve fulfilling its responsibilities in three areas: grants
management, advocacy, and performance measurement.

OIA’s grants management is hindered by problems with the use of staff, location
of field representatives, and assessments of ongoing grant-funded programs. Field
representatives are not present in all Insular Areas and OIA has not used its role in
the Interagency Group on Insular Affairs to achieve positive outcomes for the
Insular Areas, which inhibits OIA’s success with advocacy. Finally, performance
goals are not adequately defined and performance measures do not take into
account OIA’s role in influencing policy.

The purpose of this evaluation was to determine if OIA was able to effectively
assist the Insular Area governments in gaining economic self-sufficiency and
improving the quality of life for their people. Insular Area programs have been
identified as a major management challenge for many years. Numerous reviews
conducted by the Government Accountability Office (GAO) and the Office of
Inspector General (OIG) identified ongoing management and financial problems
in the Insular Areas. For example, in 2008 GAO reported that the Federated States
of Micronesia (FSM) faced major challenges in achieving the goals of the
Compact of Free Association with the U.S. Also, OIG reported in 2008 that
Insular Area health care was “at the crossroads of a total breakdown.”

We are providing recommendations to improve OIA’s staff utilization and Insular
Area advocacy. In addition, given OIA’s limitations identified in this evaluation
and prior audit coverage, we suggest that policymakers examine whether OIA as
it is currently constituted can successfully mitigate the critical problems facing the
Insular Areas, such as education, health care, and infrastructure.




                                                                                     1
Background
The purpose of this evaluation was to determine if OIA is able to effectively assist
the Insular Area governments in gaining economic self-sufficiency and improving
the quality of life for their people. See Appendix 1 for more information on our
objective, scope, and methodology.

The Insular Areas
The Insular Areas are comprised of the three freely associated states (FAS),which
are sovereign (FSM, the Republic of the Marshall Islands (RMI), and the
Republic of Palau), and the four major U.S. territories (American Samoa, the
Commonwealth of the Northern Mariana Islands (CMNI), Guam, and the U.S.
Virgin Islands (USVI)). A brief history of these areas is included in Appendix 2.

The Insular Areas are self-governing. They are located on isolated islands with
small populations. These conditions impact the costs of doing business, the ability
to recruit and retain skilled personnel, and basic services such as waste disposal
and health care. Each territory has an elected governor and legislature to provide
for local government, as well as a non-voting delegate to the U.S. Congress. In
addition to their own revenue bases, the Insular Areas rely on Federal funding
from many agencies. In 2006, Federal assistance from the agencies identified in
Figure 1 totaled about $654 million dollars. About 12 percent came from Interior
(primarily through OIA).

     Figure 1. Federal
   Assistance to the U.S.
        Territories

U.S. Department of Justice
(DOJ)
U.S. Department of Labor
(DOL)
U.S.Environmental Protection
Agency (EPA)
U.S. Department of Education
(DOED)
U.S. Health and Human
Services (HHS)
U.S. Department of
Transportation (DOT)
U.S. Housing and Urban
Development (HUD)
U.S. Department of the Interior
(DOI)
U.S. Department of Veteran
Affairs (VA)




                                                                                   2
In 2006, for the FAS, Federal assistance totaled about $235 million, of which
$179.7 million (76 percent) came from Interior as Compact grants administered
by OIA. (See Figure 2.)

                                                                           Figure 2. Federal
                                                                           Assistance to the
                                                                                 FAS

                                                                         U.S. Department of
                                                                         Homeland Security
                                                                         (DHS)
                                                                         U.S. Social Security
                                                                         Administration (SSA)
                                                                         U.S. Department of
                                                                         Agriculture (USDA)




Interior’s responsibilities to the Insular Areas
Interior's responsibilities to the Insular Areas have ebbed and flowed since the
turn of the 20th Century when the Hawaiian Islands came under Interior’s
jurisdiction. Currently, the seven main Insular Areas under Interior’s jurisdiction
exercise varying degrees of self-governance, leaving Interior to play a supporting
role.

Interior is responsible for administering and overseeing U.S. Federal assistance
provided to FSM, RMI, and Republic of Palau under the Compacts of Free
Association.1 In carrying out these responsibilities, Interior is required to
coordinate with the State Department and other Federal agencies to promote
economic development and budgetary self-reliance in these countries. Interior
also provides for the general administrative supervision of the relations between
the U.S. government and the territories of American Samoa, CNMI, Guam, and
the USVI, except for matters under the jurisdiction of other Federal agencies.2
Through the Interagency Group on Insular Affairs (IGIA), Interior is to obtain
information and advice from the four U.S. territories and collaborate with other
Federal agencies to advise the President on policy establishment or


1
   Public Law 108-188 contains the amended compacts with the FSM and the RMI, while Public Law 99-658
provides for the compact with the Republic of Palau.
2
   48 USC 1541(c), Ex. Ord. No. 12572, and 48 USC 1421a. Interior has broader but similar responsibilities in
American Samoa per Executive Order No.10264.

                                                                                                           3
implementation.3 Congress also gave Interior responsibilities such as providing
grants for capital improvement projects, technical assistance, and support of
American Samoa governmental functions.4


       “The Territories and their governments are not
       instrumentalities of the Department of the Interior. They are
       self-governing entities whose aspirations and responsibilities
       are, to a degree, similar to those of state and local
       governments. With the passage of time, the Department of
       Interior’s role has diminished, and rightly so.”

       Assistant Secretary of the Interior, 1984




The Office of Insular Affairs
 
OIA is charged with carrying out Interior’s responsibilities with respect to the
Insular Areas. In implementing the public laws and executive orders applicable to
the Insular Areas, OIA “assists U.S. affiliated islands in developing more efficient
and effective governments by providing financial and technical assistance, and
helps manage Federal-island relations by promoting appropriate Federal policies.”
OIA’s current emphasis is on “improving the financial management practices of
insular governments, increasing economic development opportunities, and
increasing Federal responsiveness to the unique needs of island communities.”5
OIA is led by an Assistant Secretary and a Director and has a staff of about 30
employees. Of this staff, 21 members are located in the Washington, D.C. office.
Four employees are stationed in the Honolulu office, which is dedicated solely to
administering FSM and RMI Compacts. Five employees (field representatives)
are located in the Insular Areas and provide support for the grants managers as
well as perform other various policy functions.

Of the 30 staff members, OIA has 10 grants managers: four for Compacts, two for
capital improvements, two for technical assistance, one for operation and
maintenance improvement, one for the Coral Reef Initiative. OIA’s funding
assistance in 2008 totaled $231 million, of which $163 million was for sector
grants under the Compacts of Free Association. In addition, $68 million was
generally available in the form of grants to the territories with the largest program
being for capital improvements. (See Figure 3.)

3
  The IGIA was originally established by Presidential memorandum dated August 9, 1999. The IGIA was
reestablished by Executive Order 13299, dated May 12, 2003. This Executive Order was superseded by
Executive Order 13537 dated April 14, 2010.
4
  48 USC 1804, 48 USC 1469d, and annual Interior appropriation acts such as Public Law 110-161 for 2008.
5
  The Interior Budget in Brief, fiscal year 2010.

                                                                                                       4
     Figure 3. OIA
      Assistance
       Programs


The grant managers are responsible for the day-to-day activities associated with
OIA’s grant programs such as reviewing grant applications, approving grant
disbursements, approving changes in project timing or scope, and conducting site
visits to the grantee. The five field representatives provide assistance to these
grants managers. The remaining half of the staff is located in Washington, D.C.
This staff includes three division heads as well as the OIA Director and the
Assistant Secretary. These individuals perform the leadership functions of OIA
such as consulting with Insular Area elected officials, approving grant
applications, and establishing policies with respect to the Compact grants. The
remaining Headquarters personnel perform various policy or administrative
functions such as monitoring current events in the Insular Areas, preparing
briefing papers and Congressional testimony, and coordinating with other Federal
agencies.
Interior measures and reports OIA’s progress in meeting its mission in its annual
performance report. OIA’s performance measures are: 1) decrease the ratio of
federal revenue to total revenues in Insular Areas; 2) increase the ratio of private
sector jobs to total employment; 3) decrease the total average number of months
that general fund financial statements of the Insular Areas are late; and 4) increase
the Insular Areas’ satisfaction with Interior’s responsiveness to their needs.

Interior reported for fiscal year 2008 that OIA has met its three of the four
performance measures pertaining to the Insular Areas. For the missed target
pertaining to private sector employment, Interior reported that the deviation from
the performance goal was “slight” and that significant steps are not necessary to
resolve the deviation.

                                                                                     5
Results of Evaluation
OIA’s ability to accomplish major policy objectives in the Insular Areas is
hindered by a lack of technical expertise and authority to directly assist the Insular
Areas with the numerous problems they face. The lack of authority to address
these problem areas exists because the responsibility for providing local
government services rests with each Insular Area government. Beyond these
constraints, we found that OIA can improve fulfilling its responsibilities in three
areas: grants management, advocacy, and performance measurement.

Grants Management
We identified problem areas in OIA’s grants management with respect to use of
staff, location of field representatives, and assessments of ongoing grant-funded
programs. Field representatives are not being consistently used to assist grant
managers in performing their oversight duties. Further, field representatives with
grant management responsibilities are not located in areas that allow oversight
and assistance to be most successful. Finally, OIA has difficulty in measuring the
success of its grant programs.

Use of Staff

We found that OIA neither requires all its field representatives to provide regular
oversight and administration of its grants, nor formally designates field
representatives as grants officer technical representatives, as do the other Interior
bureaus. Further, grant managers are not being used to their full potential.

Current practice allows duties and responsibilities of the field representatives to
vary from person to person and location to location. For example, the American
Samoa field representative assists the grants managers even though her job
description defines only the role of policy liaison. In comparison, one field
representative in CNMI was dedicated solely to grant management. OIA does not
require all its field representatives to provide regular oversight and administration
of its grants. OIA has no schedule for site visits; rather, site visits have been
planned in response to outside forces, such as media reports or headquarters
inquiries. In one case, the OIA Director himself visited Saipan to investigate
rolling blackouts, when the field representatives stationed in Saipan should have
been doing so. OIA provided millions of dollars to the Commonwealth Utility
Commission of Saipan to address maintenance issues with the power generators
without determining how prior OIA funds were used.

Designations of grants officer technical representatives involve individual
memorandums that notify individuals of their specific responsibilities, such as
monitoring project performance for specific grants. Without designations, the
roles and responsibilities that a field representative has for a particular grant are

                                                                                        6
not clearly defined. One of OIA’s grant managers told us that the use of these
designations would be beneficial in clarifying employee roles in grants
management.

We also found instances where grant managers were not being used to their full
potential. For example, the grant manager in Honolulu responsible for the public
sector capacity building grants in FSM and RMI has significant experience in
public sector capacity building, and could provide invaluable assistance in this
critical area of weakness. He has been told, however, that he “is not allowed” to
work on public sector capacity building as that was the function of OIA’s
contractor, the U.S. Department of Agriculture (USDA) Graduate School. Under
its OIA contract, the USDA Graduate School provides training courses to Insular
Area employees and provides support to various OIA initiatives. When we asked
an OIA official why Compacts staff members were not reaching out to assist the
FSM in areas such as budget development, he replied that technical assistance is
the responsibility of the USDA Graduate School and “If we do it once, they will
always expect it.”

Location of Field Representatives

OIA’s field representatives with grants management responsibilities are not
located in areas that allow them to be most successful. Historically, OIA had field
representatives in each of the Insular Areas. This changed in 1995, however,
when the OIA’s predecessor office was downsized. OIA closed its offices in
USVI and Guam. OIA has not addressed its field presence in the territories since
then.

In 2003, OIA opened a Compacts office in Honolulu dedicated to coordinating
OIA Compacts oversight. An increased OIA presence in the area was needed
because of the new accountability provisions of the revised Compacts with the
FSM and the RMI. The location of the staff in Honolulu, however, has been a
point of contention from the beginning. The then-U.S. Ambassador to the FSM
stated that to achieve real accountability, there is no substitute for permanent,
expert staff on the ground and that, despite the best of intentions, “periodic” visits
would “inevitably become infrequent.” For many reasons, OIA managers
disregarded the recommendations and warnings of this State Department official
and established the Compacts office in Honolulu. During our review, we found
that staff visits from the Honolulu office have, in fact, become less frequent,
depriving the FSM of needed assistance and oversight. In our interviews with
FSM government officials, we were told that OIA needs an active presence in
FSM in order to positively influence compact implementation. When speaking of
the site visits from the Honolulu office, some FSM officials compared them to
policemen who come in to look for problems and hand out sanctions but fail to
give them advice on how to correct underlying problems. We also heard that the
OIA officials were concerned about catching their planes and “going home to
paradise.” One FSM official told us he wanted a more collegial relationship with
OIA; not micromanagement that compromises the sovereignty of FSM.

                                                                                     7
OIA did not assign a field representative to assist the Honolulu office, the U.S.
Ambassador, or FSM government officials with Compact oversight, despite the
fact that FSM received about $100 million in grant funds, more than any other
Insular Area. OIA left FSM officials to struggle and U.S. Embassy staff to
communicate day-to-day with the FSM government.

     “The administration of a $92 million foreign aid program
     (US-FSM Compact) by means of periodic visits from
     Honolulu has caused serious strain here. I refer to ineffective
     application of U.S. assistance money as well as a strain on the
     very fabric of our bilateral relationship in a Pacific island
     nation where we face intensifying regional competition.”

     U.S. Ambassador to the FSM, 2008


Coordination between the U.S. Embassy and OIA under this arrangement is
ineffective. In a 2009 inspection (ISP-I-09-17), the Department of State Office of
Inspector General identified this as a “serious problem.” Specifically, the report
states that Compact assistance is “not factored properly into the mission strategic
plan, and the Ambassador is unable to exercise chief of mission oversight of how
U.S. assistance is utilized.” The report recommended improved coordination
between the U.S. Embassy and OIA on Compact implementation.

During our visit to FSM, we heard from a number of people about problem areas
with OIA oversight of the Compact sector grant funds. One FSM official stated
that in the absence of effective OIA administration, “the management of the
Compact should be transferred to an agency that is more disposed to helping the
people of Micronesia to achieve higher standards of health care, education, and
governance in a spirit of helpfulness and friendship.” The U.S. Ambassador to the
FSM told us that she “tends to agree” with those who said that Compact
administration should have been given to the U.S. Agency for International
Development (USAID).

Although USVI and Guam receive far less OIA grant assistance, OIA would
benefit from an increased presence in these territories. For example, our 2003
grant management report detailed the problems associated with the Ordot Landfill
grants to Guam and the lack of OIA oversight. The U.S. District Court in Guam
placed Guam’s Solid Waste Management Division under receivership in 2008
because of continued violations of the Clean Water Act and U.S. Environmental
Protection Agency regulations at the Ordot facility.




                                                                                      8
Follow-up on Grants Performance

Neither OIA grants managers nor field representatives have been successful in
attempts to assess ongoing grant-funded projects to ensure achievement of the
grants’ intended purposes. We found that a grants manager’s role is considered
fulfilled once the grant funds are expended and the grant is closed. This means
that grants managers are not tracking the ultimate result of grants and instead are
just closing files once reports are filed and payments are made. One OIA grants
manager asserted that closing grants equates to fulfilling the grants management
role.

The most telling example of this perspective in action is the new dialysis unit and
adult facility at the CNMI’s Commonwealth Health Center on Saipan. They are
still non-operational more than 3 years after the facilities were essentially
completed. When asked why, the CNMI hospital officials provided different
reasons at different times, including the facilities’ piping needed repairs, Medicare
certification of the facility was needed, and a dialysis supply contract was not in
place. This $17.6 million Commonwealth Health Center capital improvement
project is the subject of a 2007 OIG report and is again mentioned in a 2008
report on Insular Areas health care. Such adherence to the idea that closing a grant
equates to a successful job, in this case closed files versus increased medical
service on Saipan, contributes to the lack of beneficial results.




  Unused dialysis facility (above) and
  adult facility (right) at the CNMI’s
  Commonwealth Health Center.
                          Photos by OIG Staff
Recognizing the difficulty of OIA contributing to positive outcomes for the
Insular Areas, the Associate Deputy Secretary and Acting Assistant Secretary for
Policy, Management and Budget told us in 2008 that he asked a group of
Interior’s Senior Executive Service candidates in 2007 to review the legal basis
for Interior’s role in the Insular Areas. He also asked the group to offer
suggestions, from an outside perspective, on how to improve OIA services.

In June 2008, the group provided its report, “The Insular Areas — A Strategy for
Action,” to the Deputy Chief of Staff and Acting Deputy Assistant Secretary for

                                                                                      9
Insular Affairs, who left office in early 2009. The report provided strategies for
improving coordination with other federal agencies, improving government-to-
government relationships, and providing leadership and technical expertise to
improve management practices, policies, and internal controls. The OIA Director
informed us in 2009, however, that he did not have the report and could not have
acted on its suggestions.


Insular Area Advocacy
Despite the limitations OIA operates under, we found that OIA has not done all it
could to be an effective advocate for the Insular Areas. OIA field representatives
are not present in all Insular Areas to assist with key policy issues. OIA has also
not effectively used its role in the IGIA to push for U.S. policy changes with
respect to the territories.

Field Representatives Not Present in All Insular Areas

Over two thirds of OIA’s Washington, D.C. staff does not work primarily on
grants management activities. These personnel perform a variety of functions,
including overseeing the activities of the grant managers and working on IGIA
and Congressional issues. This location works well when the staff is working with
senior officials within Interior and other federal agencies. It is not as beneficial
when the staff is working with Insular Area officials because the majority of the
Insular Areas are located thousands of miles away in the Pacific Ocean.

                            Figure 4.
                Allocation of OIA Desk Officers,
     DC Grant Managers, and Field Staff to the U.S. Territories
                                                                                OIA Washington
                                                                                    DC Staff
       2 field staffers in CNMI — 7,790 miles                                
                                                                                 Policy Division
                                                                                  Desk officers (5)
                                                                                 Grants manager (1)
           No field staff in Guam — 7,924 miles
                                                                                 Budget Division
                                                                                Grants managers (3)
                                   No field staff in USVI — 1,595 miles
                                                                                 Technical
                                                                            Assistance Division
                                                                             Grants managers (2)
                 1 field staffer in American Samoa — 5,798 miles


An example of this problem lies with the one particular job within OIA: the desk
officer. This is one of the three most common jobs. These policy analysts serve
many functions relating to the specific Insular Areas they are responsible for,
including writing policy papers, fielding inquiries, and following current events.


                                                                                                      10
The desk officers are not only thousands of miles away from their areas of
responsibility (see Figure 4), but we found that they duplicate, at least in part, the
duties of the field representatives.

OIA has not always been in this situation. In the past, OIA had field
representatives in each Insular Area. USVI and Guam lost their field
representatives in the mid 1990s as part of a reorganization of the Office. Desk
officers in Washington, D.C. have taken up the responsibilities of those
representatives once located in the field.

Having staff located in the islands would not only help keep OIA abreast of issues
important to the Insular Areas, but it would help OIA to coordinate with
government officials on pressing issues. Given the planned relocation of 8,000
Marines and 9,000 dependents to Guam, a field representative dedicated in Guam
will be critical to the needs of the community and mitigate the impacts of this
military relocation.

OIA Role within the Interagency Group on Insular Affairs

OIA has not used its role within the IGIA to its fullest potential. When the IGIA
was established in 2003 by Executive Order 13299, it named the Interior
Secretary or his designee responsible to “convene and preside at the meetings of
the IGIA, determine its agenda, direct its work and, as appropriate to deal with
particular subject matters, establish and direct subgroups of the IGIA.” The IGIA
brings to OIA, as the Secretary’s designee, a leadership role in Federal policy and
a means to work with the territories’ governments and various Federal agencies to
improve U.S. policy on the territories. Although annual IGIA reports have
discussed ideas that would require Administration action to accomplish, they have
contained scant policy recommendations to the President. Rather, many of the
same issues are raised from year to year with no accompanying policy
recommendations. In this regard, some of the OIA employees we spoke with
expressed their concern that OIA was having “fruitless meetings” and not
utilizing IGIA to its fullest potential.

Interior has held annual meetings of the IGIA with representatives from major
federal agencies as well at elected leaders of the territories. The IGIA has
established workgroups to address various issues. These meetings are used as
examples of accomplishments whether or not they actually effected change. For
example, in a 2008 House of Representatives oversight hearing (110-81), Interior
cited one accomplishment as establishing a working group in 2003 to address the
water situation in Saipan, which Interior provided funding for in subsequent fiscal
years. OIA, however, was unable to marshal the resources needed to successfully
address the lack of potable water on Saipan which is still a problem to this day.

At the Congressional hearing, a representative of the CNMI stated, “I was hoping
that IGIA would move the territories from the realm of forgotten stepchild into


                                                                                     11
the mainstream where we would finally have powerful advocates on our side.”
The Governor of USVI said:

       “The IGIA, even under its current structure, offers an important
       opportunity for the governments of the U.S. territories to raise
       issues of concern directly to the attention of the Secretary of the
       Interior and the representatives of the federal departments and
       agencies. The ability of the IGIA, in its current form, to effect
       needed change and to develop fair and equitable policies towards
       the off-shore territories, however, is a different matter.”

The IGIA is a consultative and deliberative body only. Its purpose, as stated by
Executive Order 13299, is to 1) provide advice on establishment or
implementation of policies concerning the U.S. territories to the President and the
Interior Secretary; 2) obtain information and advice from governors and elected
officials of the Insular Areas and from others; and 3) review and advise on policy
actions proposed by any member of the IGIA that affect one of the Insular Areas.
As this list indicates, the IGIA’s role is primarily to gather information and
provide advice, which limits its power to actually effect change. For example,
GAO reported that the IGIA has tried to help Guam with budgetary requirements
related to the ongoing U.S. troop buildup but was unsuccessful because the IGIA
lacks authority to make executive decisions. Regardless, OIA cited the IGIA’s
work on this issue as one of its successes. Without making recommendations,
however, the IGIA fails to exercise even the limited power it has been given.

Executive Order 13537 dated April 14, 2010 appears to have addressed the issue
of IGIA authority by assigning the Deputy Assistant to the President and Director
of Intergovernmental Affairs as an IGIA co-chair. The practice of having a co-
chair from the White House was used from 1999 to 2001 before the IGIA was
established by Executive Order. The OIA Director told us that having a White
House co-chair would “raise the visibility” of the IGIA within the federal
community.

Annual Performance Measures
OIA lacks meaningful performance measures to demonstrate its progress in
meeting its mission goals. OIA’s performance measures currently are 1) decrease
the ratio of federal revenue to total revenues in Insular Areas; 2) increase the ratio
of private sector jobs to total employment; 3) decrease the total average number
of months that general fund financial statements of the Insular Areas are late; and
4) increase the Insular Areas’ satisfaction with Interior’s responsiveness to their
needs. All but one of these measures expands beyond where OIA responsibilities
lie. OIA, at best, can only influence the accomplishment of these measures in the
Insular Areas as the authority to provide government service rests with the local
governments. The defined outcome goals and correlating performance measures,
however, are not structured to account for this.

                                                                                    12
       “I think OIA could benefit from better organization and better
       clarification of roles and responsibilities not just for each
       division and each employee, but for the office as a whole.”

       OIA Employee, 2009


For example, OIA does not have direct control over the economic policies of the
Insular Areas and must work with Insular Area government officials and other
federal agencies to increase economic development. OIA has devoted resources
over the past few years to improving business opportunities in the Insular Areas.
OIA had one Headquarters staff member devoted to private sector development
with the assistance from other OIA employees as well as from an OIA contractor.
Annual conferences sponsored by OIA have served to elevate the visibility of the
Insular Areas within the private sector. While we were told of some successes
from these conferences, OIA has no specific performance goals to measure the
success of these efforts.

Similarly, OIA has limited influence over the financial management practices of
the Insular Areas. OIA has one Headquarters staff dedicated to improved
accountability with the assistance of an OIA contractor. Through its technical
assistance program, OIA funds training to Insular Area financial personnel. While
OIA’s efforts to improve financial management practices are a step in the right
direction, we found in our Guam taxes review that the training proved to be
counterproductive.6 Tax examiners with increased qualifications found it easier to
obtain employment outside the Government of Guam. Nevertheless, OIA lacked
specific performance measures for its efforts to improve financial practices.
Rather, the measure used is the timeliness of Insular Areas in submitting their
financial statements.

Performance measurements do not only fail to account for OIA’s sphere of
influence, but also improperly translate success in one area to mean success in an
outcome goal. Specifically, the fourth measurement is to increase the Insular
Area’s satisfaction with Interior’s responsiveness to their needs. The results of
OIA’s satisfaction survey reflect the positive feelings that we generally found in
the Insular Areas pertaining to OIA assistance but did not reflect the ability of
OIA to effect positive outcomes in the Insular Areas. For example, an American
Samoa government official said they appreciated the assistance provided by OIA
but pointed to the needs of the territory for additional capital improvements
funding. Further, FSM officials told us they felt left on their own to implement
their grant programs and would appreciate an increased OIA field presence in
their country.

6
 “Guam’s Tax Collection Activities: Office of Insular Affairs Involvement Needed to Achieve Lasting
Improvements.” OIG report number HI-EV-GUA-0002-2008, dated November 2008.

                                                                                                      13
Conclusion
Within its available resources, OIA must improve its grants management and staff
utilization. Increased on-the-ground oversight is vital for successful use of grant
funds and to ensure that grant funding is effectively used to achieve positive
outcomes for the Insular Areas. OIA must also fully utilize available forums such
as the IGIA to improve its advocacy for the Insular Areas, including coordination
with other federal agencies and making needed policy recommendations to the
President. In carrying out its responsibilities, OIA must be able to demonstrate the
degree of success it has in meeting its mission requirements.

Lastly, we are concerned that OIA as it is currently constituted may not be able to
successfully assist the Insular Areas to improve services in critical areas such as
education, health care, and utilities. Policymakers may want to consider
alternative models. For example, an increased OIA field presence and technical
staff could assist the Insular Areas in addressing problem areas. The territories
could also be treated much like a State, similar to Puerto Rico, which is no longer
under Interior jurisdiction. The FAS may be better served under another model
involving an agency better suited to deal with administering aid to foreign
countries.

Recommendations
We recommend that the Assistant Secretary for Insular Affairs:

1. Evaluate OIA’s staff utilization and location and clarify their duties in order to
most effectively accomplish OIA’s mission.

2. Consider the strategies proposed in the SES candidates report for improved
coordination with other federal agencies to increase federal responsiveness to the
needs of the territories.

3. Revise OIA’s performance goals and measures to correspond with OIA’s
current mission.




                                                                                    14
Appendix 1- Objective, Scope, and
Methodology

The objective of our evaluation was to determine whether OIA possesses and uses
the skill sets and abilities needed to effectively assist Insular Area governments.
The scope of our review included all OIA locations, three of the four U.S.
territories, and two of the three freely associated states. We excluded USVI
because of its relatively small amount of OIA grants funds. We excluded the
Republic of Palau because the financial assistance terms of the Compacts of Free
Association were scheduled for renegotiation in 2009.

We performed our evaluation work from August 2008 through June 2009 in
accordance with the “Quality Standards for Inspections” issued by the President’s
Council on Integrity and Efficiency. Accordingly, we included such tests of
records and other procedures that were considered necessary under the
circumstances. To accomplish our objectives, we conducted the following
activities:

        Reviewed applicable laws, executive orders, policy documents, and
          various reports and documents.

        Interviewed OIA officials and staff from Washington, DC, Hawaii,
           American Samoa, CNMI, FSM, and RMI.

        Interviewed Insular Area government officials from American Samoa,
           Guam, CNMI, the national Government of the FSM, and the FSM
           states of Pohnpei, Yap, and Kosrae.

        Interviewed U.S. Department of State officials from the Washington, DC
           area, the FSM, and the RMI.




                                                                                 15
Appendix 2 — Insular Areas History
During most of America's nationhood, a major portion of the land under its
jurisdiction was in territories rather than States. In 1873, when the Congress
transferred territorial oversight from the Secretary of State to the Secretary of the
Interior, the governance of some 1,629,000 square miles became an Interior
responsibility. By then, the United States had reached its present continental
dimensions, encompassing nearly 3,611,000 square miles, so that the territories
covered about 45 percent of the national domain. From them were formed the
States of Colorado in 1876; Montana, Washington, and North and South Dakota
in 1889; Wyoming and Idaho in 1890; Utah in 1896; Oklahoma in 1907; Arizona
and New Mexico in 1912; and Alaska in 1959.

In 1898, the United States acquired its first Insular possessions, annexing the
Hawaiian Islands and obtaining Puerto Rico, Guam, and the Philippines from
Spain following the Spanish-American War. America's Pacific presence was
extended a year later with the addition of several of the Samoan Islands. Only
Hawaii came under Interior at the outset; the State Department took primary
responsibility for Puerto Rico, the War Department supervised the Philippines,
and the Navy Department oversaw Guam and American Samoa. When the United
States purchased the Virgin Islands from Denmark in 1917, the Navy also took
charge of that Caribbean possession.

This diffusion of territorial responsibility began to be reversed in the 1930s. In
1931, President Herbert Hoover moved the USVI to Interior. In 1934, President
Franklin D. Roosevelt created a new Interior unit, the Division of Territories and
Island Possessions, to coordinate oversight of Alaska, Hawaii, the USVI, and
Puerto Rico. The Division dealt with the Philippines from 1939 until those islands
attained independence in 1946, a period during which they were largely self-
governing before coming under Japanese wartime occupation.

In the 1950s, Interior gained some small territorial responsibilities but lost some
big ones. Interior assumed jurisdiction over Guam, American Samoa, and the
Trust Territory of the Pacific Islands in 1950 and 1951. The last contained the
Caroline and Northern Mariana Islands, former Japanese possessions that the
United Nations assigned to United States trusteeship in 1947. It lost responsibility
for Puerto Rico after 1952, when a new Commonwealth constitution granting that
island full internal self-government took effect. Most notable were the
graduations of Alaska and Hawaii to statehood in 1959.

The USVI, Guam, and American Samoa remain Interior concerns, as is CNMI, a
U.S. territory established in 1986 from the Trust Territory of the Pacific Islands.
While the territories’ legal relationships with the United States vary, all have their
own elected legislatures and executives and enjoy substantial autonomy in
domestic affairs.


                                                                                    16
 The remaining Trust Territory of the Pacific Islands entities chose a dramatically
different political status. In 1979, the United States recognized the Constitution of
the Marshall Islands and the establishment of RMI. The United States recognized
FSM in 1979 and the establishment of the national Government, as well as four
State-level governments from the islands of Yap, Chuuk, Pohnpei, and Kosrae.
These two countries entered into Compacts of Free Association with the United
States, which became effective in 1986. The last remaining part of the Trust
Territory of the Pacific Islands, the Republic of Palau, gained its independence in
1994 and also entered into a Compact of Free Association agreement with the
United States.

Under the Compacts, the status of free association recognizes each FAS as a
sovereign State with the capacity to conduct foreign affairs consistent with the
terms of the Compacts. The Compacts place full responsibility for defense with
the United States. The Compacts also provide grants funds and federal program
assistance, principally through Interior. The State Department is responsible for
government-to-government relations, while Interior is responsible for the
oversight and coordination of U.S. programs and funding assistance.

OIA is currently responsible for discharging the responsibilities of the Secretary
with respect to the territories. In recognition of the political advancement and
increased self-governance of the Insular Areas, a Secretarial Order created OIA in
1995 from a larger predecessor office.


Source: “THE DEPARTMENT OF EVERYTHING ELSE ‘Highlights of Interior
History,’” by Robert M. Utley and Barry Mackintosh,
http://www.nps.gov/history/history/online_books/utley-mackintosh/index.htm.
Additional information on the three Freely Associated States is from “History of
the Office of Insular Affairs,” http://www.doi.gov/oia/Firstpginfo/oiahistory.htm.




                                                                                    17
Appendix 3 — Prior Reviews
Over the past 5 years, the Government Accountability Office (GAO) and OIG
have issued over 50 reports detailing failures and deficiencies in many Insular
Area programs. The following reports were most applicable to OIA’s oversight
and responsibilities:

        March 2010, “U.S. Insular Areas – Opportunities Exist to Improve
          Interior’s Grant Oversight and Reduce the Potential for
          Mismanagement” (GAO Report No. GAO-10-347). GAO found that
          previously reported internal control weaknesses continue to exist in
          about 40 percent of the grant projects funded. Specifically, OIA grant
          procedures provide few sanctions for delayed or inefficient projects,
          resource constraints impede project completion and proactive
          monitoring, inconsistent and insufficient documented project
          redirection policies do little to discourage insular areas from
          redirecting grant funds, and OIA’s current data system for tracking
          grants is limited. GAO recommended that Interior take several actions
          to improve OIA’s ability to effectively manage grants: clarify its
          authorities to ensure insular areas use funds more efficiently and
          develop criteria for project redirection request approvals. Interior
          agreed with these recommendations.

        April 2009, “High-Level Leadership Needed to Help Guam Address
          Challenges Caused by DOD-Related Growth” (GAO Report No.
          GAO-09-500R). GAO found that Interior, acting with the IGIA, has
          made some efforts at Federal collaboration related to the relocation of
          8,000 marines and their dependents from Okinawa, Japan, to Guam.
          The IGIA, however, is an advisory group and lacks the authority to
          direct other Federal agencies' budgets or other resource decisions to
          help ensure that the realignment of military forces on Guam will be
          completed by the FY 2014 completion date.

        November 2008, “Guam’s Tax Collection Activities: Office of
          Insular Affairs Involvement Needed to Achieve Lasting
          Improvements” (OIG Report No. HI-EV-GUA-0002-2008). The
          report identified deficiencies in Guam’s tax collection efforts that have
          been ongoing for 20 years. Because of the significance of these
          deficiencies, OIG recommended that OIA facilitate and participate in
          Guam’s tax administration task force and identify financial resources
          and/or management assistance that can be made available to Guam’s
          Department of Revenue and Taxation.




                                                                                  18
 September 2008, “Insular Area Health Care ‘At the Crossroads of a
    Total Breakdown’” (OIG Report No. HI-EV-OIA-0001-2008). The
    report identified challenges facing Insular Areas in providing
    comprehensive health care services to their citizens. One of the
    report’s highlights was the state-of-the-art hemodialysis unit in CNMI
    funded by OIA that has been standing vacant since its completion. The
    report acknowledged that there are no simple answers to improve the
    state of healthcare in these geographically remote communities but
    recommended that five priority areas be addressed should any form of
    relief, aid, or assistance become available.


 June 2008, “Compact of Free Association: Micronesia Faces
    Challenges to Achieving Compact Goals” (GAO Report No. GAO-
    08-859T). GAO found that OIA has carried out various duties as
    administrator of the amended compacts agreement grants but has not
    addressed the FSM’s worsening compliance with Compacts reporting
    requirements and that several challenges continue to hamper its
    Compacts oversight. In addition, GAO reports that OIA has generally
    failed to hold the FSM accountable for not submitting required reports,
    including 2006 and 2007 quarterly performance reports and the annual
    report to the U.S. President and for not meeting requirements imposed
    as grant conditions. In addition, GAO states that OIA’s oversight
    continues to be constrained by time-consuming demands associated
    with poor compact implementation and that the FSM State and
    national Government budgets are not presented in unified format or
    linked to performance measures.


 June 2007, “Evaluation of Office of Insular Affairs Oversight of
    Capital Improvement Projects, Commonwealth of the Northern
    Mariana Islands” (OIG Report No. P-GR-NMI-0004-2005). OIG
    found that OIA failed to properly oversee the development of the
    Saipan Public Health Facility Project, which was one of the largest and
    most significant capital improvement projects in the CNMI. Warning
    signs were clearly present throughout the life of the Project but did not
    prompt OIA to step up its oversight. Had OIA provided adequate
    oversight and heeded early warning signs, it could have mitigated the
    problems that surfaced and helped to ensure that the CNMI had
    qualified and experienced officials to administer the Project.

 December 2006, “U.S. Insular Areas: Economic, Fiscal and
   Financial Accountability Challenges” (GAO Report No. GAO-07-
   119). GAO reports that the four U.S. territories over which OIA has
   jurisdiction face serious economic, fiscal, and financial accountability
   challenges. Efforts to meet formidable fiscal challenges and build

                                                                          19
   strong economies are hindered by delayed and incomplete financial
   reporting that does not provide timely and complete information to
   management and oversight officials for decision making. Greater
   coordination among the federal agencies would increase effectiveness
   of their efforts to improve financial accountability. The report included
   recommendations to OIA to coordinate with other grant-making
   federal agencies and to develop a framework for conducting site visits
   for OIA employees to use in grants oversight.

 September 2005, “American Samoa: Top Leadership Commitment
    Needed to Break the Cycle of Fiscal Crisis” (OIG Report No. P-IN-
    AMS-0117-2003). OIG found that American Samoa’s fiscal situation
    continued to deteriorate after the American Samoan Government failed
    to fully implement a 1995 recovery plan. The report discusses OIA’s
    role as providing technical assistance and advising American Samoa
    rather than playing a leadership role. Based on OIG’s findings, OIA
    classified American Samoa as a “high risk” grantee. The report
    recommends that OIA make greater use of its existing authority to
    ensure that American Samoa strengthens management controls and
    practices.

 September 2003, “Report on Grants Administered by the Office of
    Insular Affairs” (OIG Report No. 2003-I-0071). OIG discloses in this
    report that, although OIA had properly processed awards and
    distributed grant funds, improvements are needed for the monitoring of
    those grants. The report identified specific examples of grants that
    were ineffectively monitored, including Guam’s Ordot landfill, the
    U.S. Virgin Islands’ St. Croix Detention Center, the St. Croix health
    facility, and the Commonwealth of Northern Mariana Islands’ Rota
    Health Center. To more effectively monitor the grants, OIA needs to
    improve its management framework and control environment.
    Principal areas that needed to be addressed were 1) a centralized
    grants-tracking system, 2) accountability, and 3) management
    oversight.




                                                                         20
    Report Fraud, Waste, and
        Mismanagement
           Fraud, waste, and mismanagement in
           government concern everyone: Office of
           Inspector General staff, Departmental
           employees, and the general public. We
           actively solicit allegations of any inefficient
           and wasteful practices, fraud, and
           mismanagement related to Departmental or
           Insular Area programs and operations. You
           can report allegations to us in several ways.




By Mail:             U.S. Department of the Interior
                     Office of Inspector General
                     Mail Stop 4428 MIB
                     1849 C Street, NW
                     Washington, D.C. 20240



By Phone:            24-Hour Toll Free                       800-424-5081
                     Washington Metro Area                   703-487-5435


By Fax:              703-487-5402


By Internet:         www.doioig.gov/hotline




                                                                            21
